NRC: OIG/95A-16 - Review of NRC's Individual Plant Examination (IPE) Program
Skip to Main Page Content
Skip to Search
Skip to Site Map Navigation
Skip to Footer Links
Home
FAQ
Glossary
Facility Locator
What's New
Site Help
Index A-Z
Contact Us
Browse Aloud
Email Updates
Search NRC
Report a Safety Concern
Nuclear Reactors
Power Reactors
Research & Test Reactors
Operating Reactors
Operator Licensing
New Reactors
Advanced Reactors
Operator Licensing for New Reactors
Nuclear Reactor Quick Links
Nuclear Materials
Special Nuclear Material
Source Material
Byproduct Material
Med, Ind, & Academic Uses
Source Materials Facilities
Uranium Recovery
Fuel Cycle Facilities
Materials Transportation
Nuclear Materials Quick Links
Radioactive Waste
Decommissioning of Nuclear Facilities
Low-Level Waste
Waste Incidental to Reprocessing
High-Level Waste
Uranium Mill Tailings
Low-Level Waste Disposal
High-Level Waste Disposal
Storage of Spent Nuclear Fuel
Transporation of Spent Nuclear Fuel
Radioactive Waste Quick Links
Nuclear Security
Domestic Safeguards
Information Security
Radioactive Material Security
Contact Us
Public Meetings & Involvement
The NRC Approach to Open Government
About Meetings Open to the Public
Conferences & Symposia
Documents for Comment
Facilitating Stakeholder Involvement
NRC Information Quality Guidelines
Subscribe to E-mail Updates
Commission Schedule
Public Meeting Schedule
Adjudications (Hearings)
NRC Library
Basic References
Document Collections
ADAMS Public Documents
Public Document Room
Get Copies of Documents
FOIA & Privacy Act Requests
Photos & Video
Records Management
Withholding of Sensitive Information
FAQ Index
Electronic Hearing Docket
About NRC
The Commission
Organization & Functions
Governing Legislation
Plans, Budget, & Performance
Locations
History
Values
Direction-Setting & Policymaking
Radiation Protection
Fire Protection
Safety Culture
How We Regulate
Emergency Preparedness & Response
Public Affairs
Congressional Affairs
International Programs
State & Tribal Programs
Alternative Dispute Resolution Programs
Civil Rights
Contact Us
Career Opportunities
Contracting Opportunities
Grant Opportunities
Print
Home > NRC Library  > Document Collections > Inspector General
Reports > 1996 >  OIG/95A-16
OIG/95A-16 - Review of NRC's Individual Plant Examination (IPE) Program
Contents
Overview
Report Synopsis
Introduction
Conclusions
Background about NRC's Individual Plant Examination (IPE)
Program
Analysis of The Differing Professional View Panel (DPV)
Report
The IPE Purpose, Review Guidance, and Conduct of Review
Scope of Work for Contractor Employees
Technical Issues
The IPE Insights Program
Use of IPEs in the NRR and the Regions
Objectives, Scope, and Methodology
U.S. NRC Functional Organization Chart
Major Contributors to this Report
Glossary: Office of the Inspector General Products
Overview
Office of The Inspector General U.S. Nuclear Regulatory Commission Review of NRC's Individual Plant Examination (IPE) Program November 6, 1995
Memorandum To:
James M. Taylor
Executive Director for Operations
From:
Thomas J. Barchi
Assistant Inspector General for Audits
Subject:
Review of NRC's Individual Plant Examination (IPE) Program
Attached is the Office of the Inspector General's audit report entitled, "Review of NRC's Individual Plant Examination Program."  We began a review of NRC's IPE program in June 1995, based on concerns expressed by an NRC contractor employee in a March 1995 letter sent to the former NRC Chairman.  Subsequently, we learned that NRC had formed a Differing Professional View Panel (the Panel) to look into these same issues.  In July 1995, the Panel issued its report to the Director, Office of Nuclear Regulatory Research, who reviewed it and implemented actions to address the report's observations and recommendations.
We terminated our audit work because we found the report addressed the major concerns expressed by the contractor employee.  We also concluded that the report was comprehensive and addressed most of the issues that we had planned to audit.  We believe implementation of the Panel's recommendations should go a long way toward resolving the contractor employee's concerns and provide better clarification as to how the IPE results can and should be used.
We did not make any recommendations of our own.  However, we intend to continue tracking the agency's implementation of the Panel's report recommendations.
Attachment: As stated
cc:
H. Thompson, EDO
J. Milhoan, EDO
K. Cyr, OGC
J. Hoyle, SECY
D. Rathbun, OCA
J. Blaha, EDO
R. Scroggins, OC
P. Norry, ADM
G. Cranford, IRM
R. Bangart, OSP
W. Russell, NRR
E. Jordan, AEOD
D. Morrison, RES
C. Paperiello, NMSS
J. Funches, ICC
W. Beecher, OPA
T. Martin, RI
S. Ebneter, RII
H. Miller, RIII
L. Callan, RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV
OPA-RIV-FO
Report Synopsis
The Office of the Inspector General began a review of the U.S. Nuclear Regulatory
Commission's (NRC) Individual Plant Examination (IPE) program in June 1995.
The impetus for this survey stemmed from concerns expressed by an NRC contractor
employee in a March 1995 letter sent to the NRC Chairman. His primary concern
centered on the ability to use IPE results for future risk-based regulation.
We learned that NRC formed a Differing Professional View Panel (the Panel) in May 1995.  The Panel was charged with looking into the concerns identified by the contractor employee.  In July 1995, the Panel issued its report to the Director, Office of Nuclear Regulatory Research, who reviewed it and implemented actions to address the report's observations and recommendations.
Based on our review of the Panel's report, we terminated our audit work because
we found the report addressed the major concerns expressed by the contractor
employee and concluded that the report was comprehensive and addressed most
of the issues that we had planned to audit. We believe implementation of the
Panel's recommendations should go a long way toward resolving the contractor
employee's concerns and provide better clarification as to how the IPE results
can and should be used. We intend to continue tracking the agency's implementation
of the Panel's report recommendations.
Introduction
The U.S. Nuclear Regulatory Commission's (NRC) Office of the Inspector General (OIG) began a survey of NRC's Individual Plant Examination (IPE) program in June 1995.  The incentive for this survey stemmed from concerns about the IPE program expressed by an NRC contractor employee in a March 1995 memorandum sent to the former NRC Chairman.  In the memorandum's conclusion, the contractor employee expressed his opinion that "the review process being used by the NRC for the IPEs is insufficient to provide a technically-supportable basis for the use of risk-based regulations."
The planned objectives of our work were to determine if the IPE program had achieved its stated objectives and whether there were "lessons learned" that could be applied to NRC's ongoing Individual Plant Examination of External Events (IPEEE) program.  Additionally, we wanted to evaluate the bases for the charges that NRC review of IPEs was insufficient.
However, during preliminary work, we learned that NRC had appointed a Differing
Professional View Panel (the Panel) to look into the issues raised by the NRC
contractor employee. The Panel's report was published on July 25, 1995. After
its publication, we reviewed the Panel's report content, conclusions, and recommendations.
We also performed interviews with various NRC staff associated with the IPE
program. Accordingly, we did not fully pursue our original objectives and do
not believe additional audit work is warranted at this time. This report provides
the overall conclusions that we reached. Additionally, the appendices to this
report contain background information about NRC's IPE program (Appendix I),
our analysis of the Panel's report (Appendix II), and a description of our survey
objectives, scope, and methodology (Appendix III).
Conclusions
We believe the Panel's report addresses the major concerns expressed by the contractor employee.  Additionally, we have concluded that the report is comprehensive and addresses most of the issues that we had planned to audit.  The Panel also made several recommendations to the NRC to resolve identified concerns about using IPEs in future risk-based applications.  We believe the Panel's recommendations should go a long way toward resolving the contractor employee's concerns and provide better clarification as to how the IPE results can and should be used.  Furthermore, based on the RES Director's letter to the contractor employee, we believe the agency is committed to implementing those recommendations.
However, we intend to continue tracking the agency's implementation of the
Panel's report recommendations and the RES Director's commitment to them. If
deemed appropriate in the future, we may initiate additional audit work in this
area.
Background about NRC's Individual Plant Examination (IPE) Program
The NRC issued a Safety Goal Policy Statement on severe accidents in nuclear power plants on August 8, 1985(1).  In that statement NRC said:
On the basis of currently available information, the Commission concludes
that existing plants pose no undue risk to public health and safety and sees
no present basis for immediate action on generic rulemaking or other regulatory
changes for these plants because of severe accident risk.
Additionally, the policy statement pointed out that NRC had many ongoing nuclear safety programs involved with evaluating safety and severe accident issues.  NRC and the nuclear industry's experience with plant-specific probabilistic risk assessments (PRA) was one important source of new information regarding these areas.  In providing its policy for operating reactors, the Commission included guidance for dealing with severe accident issues when "significant new safety information arises to question whether there is adequate assurance of no undue risk to public health and safety."  The policy guidance for operating reactors further stated that licensees of each operating reactor will be expected to perform a limited-scope, accident safety analysis designed to discover instances (i.e., outliers) of particular vulnerability to core melt or to unusually poor containment performance, given core-melt accidents.
This same severe accident policy guidance also applied to applications for operating licenses.
In providing this guidance, NRC indicated that it would formulate a systematic approach for implementing the safety analysis, including the development of guidelines and procedural criteria.  Subsequently, the Commission issued Generic Letter No. 88-20 (GL 88-20) on November 23, 1988.  GL 88-20 requested that each nuclear utility perform an IPE for severe accident vulnerabilities and report the results to the Commission.
The purpose of the IPE was to help each utility: (1) understand severe accident behavior; (2) understand the most likely severe accident sequences that could occur at its plant; (3) gain a more quantitative understanding of the overall probabilities of core damage and fission product releases; and (4) reduce any core damage or release probabilities as needed.  NRC staff expected that the IPE results would demonstrate consistency with the Commission's Safety Goal Policy Statement.
The Commission gave licensees latitude in choosing their examination methodology.  For example, licensees could use either a PRA, the Industry Degraded Core Rulemaking Program system analysis, or other systematic examination methods to conduct IPEs.  The data used in performing IPEs could be generic or plant specific, although NRC preferred that plant specific data be used if available and meaningful.  The utilities could perform the IPEs using their own staff or contractors with expertise in PRA.
NRC issued additional draft licensee guidance for the performance of the IPE and described a two-step review and evaluation process to be used by the NRC staff for assessing the IPE submittals.  NRC also held a workshop with utility representatives to discuss the IPE objectives and answer questions that the utilities might have on both the IPE generic letter and the draft guidance document.  Following completion of the workshop, NRC published a final report in August 1989 entitled, "Individual Plant Examination: Submittal Guidance" (NUREG1335).  NRC requested licensees to submit proposed programs for completing the IPEs within 60 days and expected licensees to submit their IPE results within 3 years.
Subsequent to publication of NUREG-1335, NRC management re-evaluated the level of resources that would be required to review the IPEs.  As a result, NRC management decided to reduce the level of detail of the staff's review of IPE submittals, which then necessitated a change in the review process.  In a February 1990 memorandum, NRC management finalized its review plan for the IPEs.
The NRC plan considered both the objectives of the IPE and the limited resources available.  NRC staff proposed a two step review process.
During a Step-1 (or submittal) Review, NRC would: (1) perform a short screening review of all licensee's IPE submittals, (2) immediately return deficient submittals to the licensee for improvement, (3) document acceptable submittals accordingly and notify the licensee, and (4) review questionable submittals in more detail.  As a result of this Step-1 Review, NRC would enter insights and findings gleaned from the IPE into a data base for future use and reference.  NRC would achieve the objectives of the Step-1 Review by: (1) verifying all required documentation was submitted, (2) identifying obvious errors or omissions, (3) determining if key areas were reasonably addressed, (4) identifying important insights and findings, and (5) evaluating the licensee's involvement in preparing the submittal.  Because of limited internal resources, NRC utilized contractor employees to assist with the submittal reviews.
During the Step-2 Review, NRC would select IPE submittals for a longer detailed process review.  NRC's selection criteria for these reviews would be based on: (1) plants having IPE findings inconsistent with NRC's PRA experiences and expectations, (2) plants with unique characteristics that did not conform to any of the NRC comparison reviews, and (3) plants having IPE submittals in which deficiencies were identified in the Step-1 Review.  The objective of the Step-2 Review was to evaluate the licensee's IPE process, methodology, and conclusions in more detail.  NRC also recognized that the Step-2 Review "would not be detailed enough to allow staff to utilize IPE submittals in assessing acceptability of future licensing actions."
As of July 1995, licensees have submitted to NRC the results of 77 IPEs.  These 77 IPEs address 115 commercial nuclear reactors which were covered by GL 88-20 at the time of issuance.  Although NRC originally expected all licensees to submit IPE results by 1992, NRC received only 44 submittals by the end of that year.  The remaining 33 IPE submittals were received between 1993 and 1994.  Licensees did inform NRC of anticipated delays in providing the requested information.  NRC determined that only five IPE submittals met the selection process for Step-2 Review and, subsequently, performed those reviews.  The balance of the IPE program is nearing completion and NRC expects to complete the remaining Step-1 submittal reviews by July 1996.
GL 88-20 also requested that licensees perform similar examinations of externally
initiated events (i.e. floods, fires, tornados, earthquakes) in the future.
NRC refers to this process as the Individual Plant Examination of External Events
(IPEEE). NRC provided detailed guidance on the performance of IPEEEs in Supplement
4 to GL 88-20, issued June 28, 1991. Some utilities have submitted IPEEE results,
but NRC does not expect completion of the IPEEE program until 1998.
Analysis of The Differing Professional View Panel (DPV) Report
The primary concern of the contractor employee, as outlined in his letter to the former NRC Chairman, was his belief that: (1) NRC is moving toward probabilistic based regulation, and (2) IPE submittals by licensees are a cornerstone of this movement.  Furthermore, the contractor employee believed that the NRC review process for IPEs was insufficient to provide a technically-supportable basis for developing risk-based regulations.
During initial work, we learned that NRC formed a Differing Professional View Panel(2)(Panel) in May 1995 to review the contractor employee's concerns.  NRC's policy regarding differing professional views is normally applicable only to agency employees.  However, RES determined that, due to the nature of the concerns, the best way to handle the contractor employee's memorandum was as a differing professional view.  On May 8, 1995, the Panel was formed.  In order to ensure that the concerns were clearly understood, members of the Panel interviewed the contractor employee.
On July 25, 1995, the Panel issued a report to the Director, RES.  The Panel's report categorized and addressed the contractor employee's concerns in five major areas dealing with the IPE program: (1) the purpose, review guidance, and conduct of review for the IPEs; (2) the scope of work for contractor employees involved in the IPE review process; (3) technical issues associated with the IPEs; (4) the IPE Insights program; and (5) use of IPEs in the Office Nuclear Reactor Regulation and the Regions.  The Panel provided a separate appendix in the report which specifically addressed technical concerns raised by the contractor employee.  Overall, the Panel concluded that the contractor employee raised several valid technical and programmatic issues.  On August 14, 1995, the Director, RES, informed the contractor employee of how NRC handled his concerns and outlined the measures that the agency intended to initiate to resolve them.
This OIG appendix summarizes the Panel's findings and conclusions regarding
the contractor employee's concerns as well as the corrective actions planned
by the NRC. We did not evaluate the technical issues raised by the contractor
employee or the Panel's conclusions regarding them. Rather, we concentrated
on the programmatic implications expressed about the IPE process.
The IPE Purpose, Review Guidance, and Conduct of Review
This section of the Panel's report discusses the purpose of the IPE program, review guidance and guidance provided to licensees for format and content of IPE submittals, technical issues related to the IPE review process, and issues related to the IPE process.  The Panel concluded that the contractor employee understood the purpose of the IPE reviews in the limited context of determining whether a licensee's IPE process met the intent of GL 88-20.  The Panel also believed the contractor employee understood the limitations associated with the IPE program resulting from a limited staff review.
However, the Panel indicated that the contractor employee's examples of technical issues raised were illustrative of the limitations of IPE submittal reviews conducted by the NRC staff and its contractors.  The Panel also pointed out a number of factors that cause confusion over the present and future use of IPEs and the credit to be given for staff reviews of the IPE submittals.  The Panel made a key point when it stated, "The staff reviews could, although incorrectly, be assumed by other NRC staff and licensees to be an independent confirmation of assumptions and plant-specific information in the IPE submittals."
As a result, even though the current IPE program is largely complete, the Panel recommended that "the objectives, scope, and depth of NRC's review of IPE submittals be reconsidered to determine if continuation of the IPE program in its present form is appropriate."  If the program is continued, the Panel recommended that specific review guidance be issued to more appropriately conform with the limited purpose of the IPE reviews and clarify the findings that are to be made during the reviews.  The Panel also believed that the IPEEE program plan should be reviewed and revised, as needed, in light of the issues and concerns related to the IPE program.
In his letter to the contractor employee, the RES Director said he concurred
with "the DPV Panel's conclusions that there could be some confusion regarding
the IPE program and the limitations associated with the review of IPE submittals
which could result in potential misuse, or overreliance on the IPE submittal
reviews for purposes other than those originally intended." As a result, the
RES Director plans the following actions: (1) issue clarifying guidance to the
staff concerning the purpose of the IPE submittal reviews and the scope of the
findings; (2) ensure that weaknesses identified during the staff's reviews and
that address issues beyond the intent of GL 88-20 are clearly identified; and
(3) prepare a brief document that clearly restates the IPE objectives, the purpose
and limitations of the staff's review, the intended uses of the IPEs, and the
potential relationship of the IPE program to future regulatory activities.
Scope of Work for Contractor Employees
Another area that the Panel reviewed was the scope of work for contractor employees who assisted NRC in the IPE submittal review process.  In particular, the Panel looked at how follow-up questions resulting from the initial review of IPE submittals were developed and presented to the utilities.  Additionally, the Panel looked into charges that NRC employees had inappropriately directed changes to contractor employee's reports and the potential effect such changes could have on the overall IPE results.
In evaluating the scope of work for contractor employees, the Panel reviewed various documents used to place work with the employer of the concerned individual.  The Panel found that NRC used Task Orders (TO) to initiate the contractor employee reviews.  These TOs indicated that "submittal only" reviews were to be performed by the contractor, in order to determine whether the licensee's IPE process met the intent of GL 88-20.  However, the Panel concluded that the TOs were confusing with regard to the scope of the work to be performed.
The Panel also reviewed the contractor employee's questions submitted to NRC for presentation to the licensees regarding their IPEs.  The Panel found the questions were consistent with the level of detail to be included in IPE reviews based on the IPE submittal guidance and the review guidance.  It was the Panel's opinion that subsequent NRC revisions to the contractor employee's questions involved differing views related to items "such as the number of questions that should be sent to a licensee, and the amount of background information necessary to preface a question."  The Panel concluded that it was not apparent that "any significant proposed questions or proposed issues were eliminated from the questions sent to a licensee.  Rather, the changes reviewed by the Panel appear to be the result of technical editing and a staff desire to focus or simplify questions."
Another area reviewed by the Panel involved staff-directed changes to the contractor employee's technical evaluation reports (TER), which provided the results of his IPE reviews.  The Panel noted there were no RES Office Letters or NRC procedures that define the process for directing this type of change.  The Panel said "While changes to contractor reports may be appropriate in some instances, they may not be appropriate in all cases."  The Panel also said that NRC safety evaluation reports (SER) issued to licensees "contained different, although generally similar, statements and conclusions."  The Panel said:
Rather than state its conclusions and reference the bases for these conclusions, the staff's SERs adopted virtually the entire TER.  As a result, the contractor's TER became, for practical purposes, the real SER.  This reliance on the contractor's report appears to be a source of conflict since the staff would want to delete any statements or items that it could not adopt.
The Panel discussed the TER changes with the contractor employee in order to determine their significance.  The contractor employee indicated that the NRC staff-directed alterations made would not have changed the overall conclusions regarding the IPE submittals.  Therefore, NRC does not plan to perform any further review of the changes made to TERs.
However, the Panel did recommend that NRC review this issue.  The Panel believed NRC should determine if the agency needed to develop additional procedures to define and clarify the process and the extent to which NRC can require revisions be made to a contractor's technical report.  Additionally, the Panel believed NRC should develop guidance to: make questions sent to licensees more consistent, make IPE reviews more focused, expedite the phase of the IPE review which includes question development and submittal to the licensees, and improve efficiency.
In his letter to the contractor employee, the RES Director indicated he had
directed a review of existing procedures in RES. The review was to include:
(1) the process used by the staff to evaluate and utilize contractor reviewer's
questions, (2) the submittal of questions to licensees and subsequent response
evaluation, and (3) the process and extent of revisions that RES staff should
make to contractor reports. As a result of this review, additional guidance
would be developed as needed.
Technical Issues
In his letter, the contractor employee discussed issues related to plant-specific technical issues and the effects of modeling assumptions, human reliability analysis, and hardware reliability.  The Panel reviewed a number of these technical issues and "in most cases, agrees with [the contractor employee's] conclusions concerning their effects on PRA results, including limitations with respect to future reliance on IPE results."  We did not attempt to evaluate the Panel's work in this area.
The RES Director concurred with the Panel's conclusions and recommendations
in this area dealing with the affect on PRA results. However, based on his discussions
with NRC staff, the RES Director concluded that the issues raised "would not
affect the overall outcome of whether the licensee's IPE met the intent of GL
88-20." He did plan to have further discussions of the issues "with the staff
involved in the IPE insights program to ensure a thorough consideration of the
issues you raised... ." Additionally, the RES Director pointed out that the
staff is preparing a paper that discusses a framework that can be used for increased
utilization of PRA application as part of the regulatory process. This paper
is intended to ensure the consistent and appropriate application of PRA methodology
and techniques. This paper will also address the role and relationship of the
IPE program to this effort.
The IPE Insights Program
NRC is maintaining a database of information attained from the IPE submittals.  NRC expects the database to provide generic insights into nuclear power plant behavior.  This database will help to identify potential weaknesses with groups or classes of plants and furnish a framework from which risk-based regulations could ultimately be evaluated.  Additionally, the NRC staff recently initiated an IPE Insights Program.
According to the Panel's report:
This program is supported by the IPE database being developed from the IPE submittals; the data from approximately 71 IPE submittals are currently included in the database...Plant-specific insights are identified and documented in individual reviews and documented in plant-specific SERs [safety evaluation reports].  Generic insights are to be identified and discussed in information notices to be issued to licensees.
In its report, the Panel noted that, in a meeting of April 19, 1995, NRC staff discussed this program with the Commission.  The Panel pointed out that, as part of that discussion, the NRC staff addressed limitations of the IPE program and the uncertainty associated with reliance on the results.  The Panel itself noted that the limitations were a result of a number of factors "including the use of generic instead of plant-specific failure data, and assumptions made concerning equipment operability in various environmental conditions."  The Panel further recognized that, in a Staff Requirements Memorandum (SRM) dated April 28, 1995, the Commission noted these limitations.  The Panel pointed out that the SRM said:
As stated by the staff, the staff's IPE reviews have not been of sufficient depth to allow the staff to indicate approval of, or concurrence with, the absolute values and conclusions stated in the IPE reports, and do not serve as validation of the results...As an additional caution, the staff should not attempt to draw insights and conclusions from detailed comparisons of different IPE reports without full understanding of the assumptions and basis used in developing each report.
Additionally, the Panel indicated "the Commission noted that the results of the IPE program do not provide an adequate basis for future risk-based regulatory changes."
In its conclusions and recommendations regarding the technical issues raised by the contractor employee, the Panel noted the staff efforts to evaluate IPE results through the IPE Insights Program.  The Panel recognized that preliminary results from this effort "have shown that the plant-specific differences in assumptions, models, and data have caused the risk profile for similarly designed plants to vary significantly."  The Panel also found, based on its understanding of the NRC staff's review of plant specific and generic industry initiatives, that "in general, either a significant amount of additional effort is needed to improve the quality of the risk tools and information...or additional deterministic-based considerations...are needed to support the proposed application."
Based on these findings, the Panel concluded that "additional effort on the part of the NRC may be warranted to confirm whether certain objectives and expectations of GL 88-20 were achieved."  The Panel recommended that the IPE Insights Program should be expanded to "provide additional assurance that the [nuclear] industry did develop plant-specific appreciation of severe accident vulnerabilities and, where necessary, took steps to reduce the overall probability of core damage and fission produce release."
The corrective actions taken by the RES Director for the Panel's recommendations
identified in The IPE Purpose, Review Guidance, and Conduct of Review and Technical
Issues sections of this appendix address this recommendation.
Use of IPEs in the NRR and the Regions
The Panel pointed out that for "most licensees, if not all, the IPEs are synonymous with a PRA...Use of PRA is evolving and licensees are placing greater reliance on PRA in an ever expanding set of plant-specific applications."  In the Panel's opinion, a primary issue raised by the contractor employee was the relationship of IPEs performed in response to GL 88-20 to future risk-based regulation and plant-specific safety decision-making by NRC.  In particular, the contractor employee expressed his belief that the IPEs had not been reviewed in sufficient detail to support these activities.  As a result, the Panel reviewed past, present, and potential future activities expected to have increased reliance on risk analyses.
In discussing the results of this review, the Panel recognized that NRC staff stated that the limited staff reviews of the IPEs were insufficient to allow for confirmation of numerical results of individual IPEs.  Additionally, the Panel pointed out that the staff believes that the IPE results do not provide a sufficient basis for supporting risk-based regulation and plant-specific safety decision-making.
In its conclusions and recommendations, the Panel noted that the NRC staff and the industry are increasing the use of risk assessment.  The Panel concluded that NRC risk assessment staff recognize and understand the IPE's limitations in quality, content, and level of review performed.  The Panel based its conclusion "on the significant additional effort (i.e., above the IPE) that has been and is being required to use risk information in plant-specific regulatory applications."
The Panel concluded further that "while the concern about misuse of the IPE results is not directly relevant to the IPE Program itself, it is relevant to current and future uses of PRA."  The Panel pointed out that the contractor employee's primary issue was "his concern that the plant-specific IPEs were the cornerstone of future, risk-based regulation and decision-making and that the IPEs had not been reviewed in sufficient detail to support these activities."
As a result, the Panel made two recommendations to help ensure that risk information is used appropriately.  The first recommendation was to develop interim training and guidance for NRC supervisors and staff implementing risk-based applications.  This would also include guidance for all other NRC staff who may interact with industry on issues involving risk-based decision-making.  NRC would provide interim training until such time as the NRC's PRA Implementation Plan is implemented.  The other recommendation was for NRC to clearly describe to industry the IPE program's: (1) purpose, (2) scope, (3) limitations of the staff's reviews, (4) limitations related to the future use or reliance upon the IPEs, and (5) the need to develop PRAs that are acceptable for risk-based regulatory applications.
In an August 18, 1995, memorandum to his Division Directors, the RES Director
outlined actions to be taken to satisfy the Panel's conclusions and recommendations
in this area. One action was to ensure that RES staff participating in ongoing
or future regulatory programs where risk insights are used as a basis for those
programs receive appropriate training. This would be an on-going action. Another
was the preparation of a Commission Paper, with a letter to be sent to all licensees,
to clearly restate the IPE/IPEEE objectives, the purpose of the staff's review,
the uses to be made of the IPEs, and the potential of the IPE/IPEEE program
to future regulatory programs.
Objectives, Scope, and Methodology
The U.S. Nuclear Regulatory Commission's (NRC) Office of the Inspector General (OIG) began a survey of NRC's Individual Plant Examination (IPE) program in June 1995.  The incentive for this survey stemmed from concerns about the IPE program expressed by an NRC contractor employee in a March 1995 memorandum sent to the former NRC Chairman.
The objective of our survey was to determine if the IPE had achieved stated objectives and whether there were "lessons learned" that could be integrated into the agency's Individual Plant Examinations for External Events program.  Additionally, we wanted to evaluate the bases for the contractor employee's charges that NRC review of IPEs was insufficient.  We began with a short survey period in which we determined the history and breadth of the IPE program.  The overall scope and methodology of the survey included review of key historical decision documentation about the IPE program.  It also included preliminary discussions on the program's goals and accomplishments with pertinent NRC managers and industry representatives.
Early in our work, we learned that NRC had appointed a Differing Professional View Panel (the Panel) to look into the issues raised by the NRC contractor employee in his letter to the former NRC Chairman.  The Panel's report was published on July 25, 1995.  After its publication, we reviewed the Panel's report content, recommendations, and conclusions.  We also performed interviews with various NRC staff associated with the IPE program.  As a result of the Panel's report, coupled with NRC corrective action commitments to respond to the Panel's conclusions and recommendations, we terminated our work in this area.
We conducted our work between June and August 1995 according to generally accepted
Government auditing standards. Due to the limited nature of our work, we did
not assess management controls.
U.S. NRC Functional Organization Chart
Figure 1: The
U.S. NRC Functional Organization Chart
Major Contributors to this Report
Anthony C. Lipuma Team Leader
S. Russell Irish Audit Manager
Judith L. Leonhardt Senior Auditor
Susie P. Kong
Intern
Glossary: Office of the Inspector General Products
Investigative
1. Investigative Report - White Cover
An Investigative Report documents pertinent facts of a case and describes available evidence relevant to allegations against individuals, including aspects of an allegation not substantiated.  Investigative reports do not recommend disciplinary action against individual employees. Investigative reports are sensitive documents and contain information subject to the Privacy Act restrictions.  Reports are given to officials and managers who have a need to know in order to properly determine whether administrative action is warranted.  The agency is expected to advise the OIG within 90 days of receiving the investigative report as to what disciplinary or other action has been taken in response to investigative report findings.
2. Event Inquiry - Green Cover
The Event Inquiry is an investigative product that documents the examination of events or agency actions that do not focus specifically on individual misconduct.  These reports identify institutional weaknesses that led to or allowed a problem to occur.  The agency is requested to advise the OIG of managerial initiatives taken in response to issues identified in these reports but tracking its recommendations is not required.
3. Management Implications Report (MIR) - Memorandum
MIRs provide a "ROOT CAUSE" analysis sufficient for managers to facilitate
correction of problems and to avoid similar issues in the future. Agency tracking
of recommendations is not required.
Audit
4. Audit Report - Blue Cover
An Audit Report is the documentation of the review, recommendations, and findings resulting from an objective assessment of a program, function, or activity.  Audits follow a defined procedure that allows for agency review and comment on draft audit reports.  The audit results are also reported in the OIG's "Semiannual Report" to the Congress.  Tracking of audit report recommendations and agency response is required.
5. Special Evaluation Report - Burgundy Cover
A Special Evaluation Report documents the results of short-term, limited assessments.
It provides an initial, quick response to a question or issue, and data to determine
whether an in-depth independent audit should be planned. Agency tracking of
recommendations is not required.
Regulatory
6. Regulatory Commentary - Brown Cover
Regulatory Commentary is the review of existing and proposed legislation, regulations, and policies so as to assist the agency in preventing and detecting fraud, waste, and abuse in programs and operations.  Commentaries cite the IG Act as authority for the review, state the specific law, regulation or policy examined, pertinent background information considered and identifies OIG concerns, observations, and objections.  Significant observations regarding action or inaction by the agency are reported in the OIG Semiannual Report to Congress.  Each report indicates whether a response is required.
Notes:
1.  Severe nuclear accidents are those in which substantial damage is done to the reactor core whether or not there are serious offsite consequences.
2.  NRC Management Directive 10.159, "Differing Professional Views or Opinions," and its handbook govern NRC policy, objectives, procedures, responsibilities, and other basic requirements and definitions established to provide for the expression and resolution of differing professional views or differing professional opinions concerning matters related to the agency's mission.  The directive establishes an informal as well as formal process for considering the differing professional viewpoints of employees for issues directly related to the mission of the NRC.
Page Last Reviewed/Updated Thursday, March 29, 2012
Home
News Releases
Event Reports
ADAMS
Open Gov
Digital Government
Students & Teachers
Photos & Video
For Developers
About Us
Strategic Plan
Budget & Performance
Perf & Accountability Rept
History of the NRC
Career Opportunities
NRC Ethics
Agency Status
Contact Us
Popular Documents
Info Digest
Factsheets & Brochures
Forms
Electronic Submittals Application
NRC Reports – NUREG
NRC Regulations – 10-CFR
Inspection Reports
Plain Writing
Enforcement Actions
RULEMAKING
Stay Connected
Blog
Chat
Twitter
YouTube
Flickr
GovDelivery
RSS
Regulations.gov USA.gov Recovery FOIA No Fear EEO Inspector General  Site Map Accessibility Privacy Policy Site Disclaimer For Employees